                                     Office of the Inspector General
                     United States Government Accountability Office


GAO/OIG

May 2011
               SEMIANNUAL
               REPORT

               October 1, 2010------
               March 31, 2011




GAO/OIG-11-4
                                                                    Office of the Inspector General
                                                    United States Government Accountability Office




Memorandum
Date:        May 24, 2011

To:          Comptroller General Gene L. Dodaro

From:        Inspector General Frances Garcia

Subject: Semiannual Report—October 1, 2010, through March 31, 2011

In accordance with Section 5 of the Government Accountability Office Act of 20081
(GAO Act), I am pleased to present my semiannual report for the 6-month period
ending March 31, 2011, for your comments and its transmission to the Congress.

During the reporting period, the Office of the Inspector General (OIG) continued its
efforts to finalize and implement the revised OIG order to reflect our statutory role
and responsibilities while continuing to conduct audits and investigations. We are in
the process of considering and responding to comments we received on the revised
draft OIG order and making changes in the order, as appropriate. In addition, we
completed an internal review of our quality assurance framework and are in the
process of taking steps to further strengthen our processes and controls in response
to this review. We recognize that other changes to our quality assurance framework
may be needed as we finalize our OIG order and complete our transition to the role of
a statutory OIG. As a result, we do not anticipate participating in a peer review until
we have completed this transition and have conducted and fully addressed any
recommendations resulting from at least two additional internal inspections.

We also prepared an annual work plan for fiscal year 2011 based on our updated audit
risk assessment of GAO operations, and we conducted a planning survey to further
identify potential risks in GAO’s procurement activities and areas for future work.
While our engagements are generally focused on areas identified in our work plan,
adjustments to our work plan are made, as needed, in an effort to ensure we are in
tune with changing conditions or emerging issues and are able to respond
appropriately.

In addition, we completed our annual review of GAO’s assessment of its management
challenges. We agreed with the assessment that physical security, information
security, and human capital continue to be management challenges that may affect
GAO’s performance. We also agreed with management’s view that progress is being

1
 Pub. L. No. 110-323, 122 Stat. 3539 (Sept. 22, 2008).




Page 1                                                     GAO/OIG-11-4 Semiannual Report
made in addressing these challenges. However, we believe that further review is
warranted to determine if these areas can be removed as management challenges and
if other risks emerge that should be designated as management challenges.

Finally, we continued to participate in the activities of the broader inspector general
community, including the Council of the Inspectors General on Integrity and
Efficiency and the quarterly meetings of Legislative Branch Inspectors General.

Audits and Inspections
During the reporting period, we issued two public reports—an assessment of the
adequacy of GAO’s controls to prevent and detect employee misuse and delinquency
of government travel cards2 and an evaluation of GAO’s information security program
and practices for fiscal year 2010.3 A summary of these reports and GAO actions to
address our recommendations are presented in attachment I.

Investigations and Hotline Activities
Regarding our efforts to identify potential fraud, waste, and abuse, the OIG’s hotline
is our primary source of complaints.4 The OIG receives hotline complaints through a
variety of sources, such as through its toll-free hotline number and e-mail. As shown
in table 1, we had a total of 129 complaints, 7 of which were open at the start of this
6-month reporting period and 122 new complaints received during the period.

Table 1: Summary of OIG Hotline and Investigative Activity, October 1, 2010, through March 31, 2011

                                                 Complaints
                                                                Referred to
                                                Closed,         other GAO
    Open at                                 insufficient           units or
    start of                   Referred to information/               other       Closed Open at end
    period       Received       FraudNet       no basis           agencies investigations  of period
    7                 122              58             46                  5             9         11
Source: GAO OIG.
Note: “Complaints” include inquiries and allegations received by OIG.

The 7 open cases from the prior semiannual reporting period covered a wide range of
matters, such as issues related to telework, travel voucher claims, and the day care
facility located at GAO headquarters. Of these 7 cases, we closed 4—2 because of no
basis for further action and 2 after conducting investigations. Three remained open at
the end of the period. We referred the results of one investigation to GAO’s Office of
Workforce Relations to determine whether any administrative action is appropriate.

2
  GAO, Office of the Inspector General, GAO Travel Cards: Opportunities Exist to Further Strengthen
Controls, GAO/OIG-11-1 (Washington, D.C.: Dec. 7, 2010).
3
  GAO, Office of the Inspector General, Information Security: Evaluation of GAO’s Program and
Practices for Fiscal Year 2010, GAO/OIG-11-3 (Washington, D.C.: Mar. 4, 2011).
4
  Complaints include inquiries and allegations received by OIG.




Page 2                                                              GAO/OIG-11-4 Semiannual Report
In addition, our investigation into the daycare facility resulted in our suggesting that
management consider expanding GAO’s role in overseeing the facility.

During the current reporting period, we received 122 new complaints through our
hotline and other sources. Fifty-eight of the 122 complaints concerned matters
related to other federal agencies and were referred to GAO’s FraudNet—a
governmentwide hotline operated by GAO staff that receives complaints of fraud,
waste, and abuse of federal funds. Of the remaining 64 complaints received during the
reporting period, we

        closed 4 complaints after we conducted investigations and combined 3 other
         complaints into ongoing investigations. The closed investigations included
         issues relating to unemployment insurance payments for employees of a GAO
         contractor, purchase card fraud, employee misconduct, and a whistleblower
         complaint regarding a GAO audit. One of these investigations resulted in an
         employee being counseled, and, following another investigation, an employee
         resigned from GAO before the agency could take administrative action.
        closed an additional 44 complaints when we determined there was no basis for
         additional action, sometimes after completing preliminary investigative work.
         In one of these 44, we provided assistance to the District of Columbia OIG on
         an investigation.
        referred 5 complaints—4 to other GAO units and 1 to another agency—for
         action that involved such issues as e-mail scams, employee misconduct, and an
         information request.
        continued efforts on the remaining 8 open complaints.

Agency Actions on Recommendations Made in Prior OIG Reports
During this reporting period, GAO undertook or continued actions to respond to
recommendations intended to provide oversight of and controls over GAO’s
contractor parking policies and practices. For example, GAO has developed
procedures to ensure provisions in the GAO Vehicle Parking Program order are
strictly adhered to regarding contractor parking. This includes developing procedures
to ensure that contractor parking is provided according to contract provisions and
that contract language regarding parking is standardized and includes appropriate
caveats.

GAO also took actions to respond to a recommendation that the Office of General
Counsel consider the adoption of suspension and debarment procedures, including
reporting any suspended or debarred GAO contractors to the Excluded Parties List
System (EPLS). To address this recommendation, the General Counsel established a
study team to consider the merits of a suspension and debarment procedure at GAO.
This team recommended, and the Executive Committee concurred, in April 2011, that
GAO should develop suspension and debarment procedures, including EPLS
reporting. GAO is now in the process of developing such procedures.




Page 3                                                GAO/OIG-11-4 Semiannual Report
I provided GAO with a draft of this report for review and comment. The agency
provided technical comments that we incorporated, as appropriate.

Finally, I want to thank GAO’s Executive Committee, managers, and staff for their
cooperation during our reviews.

Attachment

cc: Patricia A. Dalton, Chief Operating Officer, GAO
    David M. Fisher, Chief Administrative Officer/Chief Financial Officer, GAO
    Lynn H. Gibson, General Counsel, GAO
    GAO’s Audit Advisory Committee




Page 4                                             GAO/OIG-11-4 Semiannual Report
Attachment I

                  Summary of GAO/OIG Reports and GAO Actions

Reports Issued October 1, 2010, through March 31, 20115

GAO Travel Cards: Opportunities Exist to Further Strengthen Controls
(GAO/OIG-11-1, Dec. 7, 2010)

Findings: GAO’s policy and procedures were generally effective in preventing and
detecting travel charge card misuse. However, OIG identified areas where GAO’s
travel card program could be strengthened by adopting selected best practices
identified in related Office of Management and Budget (OMB) guidance. As a
legislative branch agency, GAO is not required to follow any OMB circulars, including
OMB Circular No. A-123 or its appendixes. In testing the effectiveness of GAO’s
monitoring of travel card delinquency, OIG found that the agency could improve its
procedures to reduce delinquency. While GAO has had a process to take action when
employees were delinquent in paying their travel cards, OIG found that GAO was
missing a key component—procedures that set out the requirements and time frames
for referring delinquent cardholders for potential disciplinary action. OIG also found
that GAO has implemented some of the controls identified by OMB in its guidance
but is not using other controls, such as statistical and narrative information on travel
card use to enhance program oversight and management of its travel card program.
Further, GAO had not developed a management plan to help provide a road map for
ensuring the ongoing effectiveness of its risk management controls. In addition, OIG
found that internal controls and best practices identified in OMB Circular No. A-123,
Appendix B, were not used by GAO to manage or assess the effectiveness of GAO’s
travel card program controls.

Recommendations and GAO actions: This report recommends that GAO (1) develop
procedures to minimize the number of travel cards and review the appropriateness of
travel card spending and related ATM cash advance limits; (2) develop policies and
procedures, including time frames, for referring delinquent cardholders for
disciplinary action and notifying the OIG of actions taken; (3) develop and report
statistical and narrative travel card compliance information to oversight managers;
(4) establish a goal to gauge agency progress in reducing delinquency; (5) consider
establishing a policy to use OMB Circular No. A-123, Appendix B, in GAO’s annual
assessment of the effectiveness of the travel card program’s internal controls; and
(6) consider identifying and adopting, as appropriate, additional controls and best
practices identified in OMB Circular No. A-123, Appendix B, to help reduce travel card
program risk and improve management’s assessment of travel card program controls.
GAO concurred with these recommendations and has taken actions to reduce the
number of travel card accounts and develop standard operating procedures to refer


5
In addition to the reports cited, we issued our semiannual report for the 6-month period ending
September 2010: GAO, Office of the Inspector General, Semiannual Report—April 1, 2010, through
September 30, 2010, GAO/OIG-11-2 (Washington, D.C.: Dec. 7, 2010).




Page 5                                                    GAO/OIG-11-4 Semiannual Report
delinquent cardholders to GAO’s Office of Workforce Relations. GAO is continuing to
address the remaining recommendations in this report.

Information Security: Evaluation of GAO’s Program and Practices for Fiscal Year
2010 (GAO/OIG-11-3, Mar. 4, 2011)6

Findings: The OIG’s evaluation showed that, in voluntary compliance with the
Federal Information Security Management Act of 2002 (FISMA), GAO has established
an information security program that is generally consistent with requirements of this
act, Office of Management and Budget (OMB) implementing guidance, and standards
and guidance issued by the National Institute of Standards and Technology. However,
based on evaluation metrics provided by OMB for inspectors general, the OIG
identified improvement opportunities for specific elements of GAO’s program that
concerned (1) identifying the agency’s systems inventory and assuring that all
systems operated by GAO or by contractors meet security requirements,
(2) implementing additional computer-scanning capabilities to test security
configuration settings, (3) remediating configuration-related vulnerabilities in a
timely manner, (4) ensuring that contractors have access to required role-based
security awareness training, and (5) planning for further implementation of the
personal identity verification requirements of Homeland Security Presidential
Directive 12 (HSPD-12).

Recommendations and GAO actions: This report recommends that GAO
(1) incorporate procedures within its annual systems inventory process that require
inventory changes to be documented and formally approved by the Chief Information
Officer and that system interfaces be identified, (2) identify and pursue additional
options for obtaining assurances that certain contractor systems meet federal
information security requirements, (3) continue efforts to complete and document
required information security processes and procedures for all GAO-operated
systems, (4) proceed with plans to establish a security configuration scanning
capability for GAO notebook computers and workstations, (5) incorporate changes to
the configuration management process that remediate specific open configuration-
related vulnerabilities, (6) ensure that access to annual role-based information
security training or its equivalent is provided for all contractor staff required to take
this training, and (7) develop and brief senior management on a plan for practical
implementation of HSPD-12 requirements. GAO concurred with these
recommendations and has identified actions to address them with target completion
dates through the end of fiscal year 2011.




(998299)

6
Because the full report contains sensitive information, only our Highlights page is publicly available
on http://www.gao.gov. However, congressional members can request the full report.




Page 6                                                         GAO/OIG-11-4 Semiannual Report
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
